          OFFICE OF
   THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


      FISCAL YEAR 2001 QUICK
        RESPONSE ACTVITIES
         SUMMARY REPORT

  May 2002         A-13-02-12057




 MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                   SOCIAL SECURITY
MEMORANDUM

Date:   May 9, 2002                                                      Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Management  Advisory Report – Fiscal Year 2001 Quick Response Activities Summary
        Report (A-13-02-12057)


        This Management Advisory Report provides you information on the Office of the
        Inspector General’s (OIG) Quick Response (QR) workload. The report describes the
        sources and types of QR activities and categorizes them in line with issues OIG
        identified to be among the top 10 challenges facing the Social Security Administration
        (SSA) management. We prepared this report for your information and therefore it does
        not require that you take any action.

        Anticipating an increase in requests to provide information and advice to Congress,
        SSA management, and the general public, we established the QR Team within the
        Office of Audit. The QR Team performs short-duration, time-sensitive projects that
        address requests from the Congress, SSA management, the general public, and others.
        Unlike traditional audits and evaluations, QR projects are not planned or scheduled in
        advance.

        This report summarizes our QR activities from October 2000 through September 2001.
Page 2 – The Commissioner


NATURE AND SOURCE OF QR WORKLOAD
In Fiscal Year (FY) 2001, the QR Team issued 17 responses. This workload consisted
of inquiries concerning SSA’s service to the public, issues related to potential fraud, and
the Representative Payment Program. Sources of these inquiries included the
Congress, SSA management, the general public, and labor unions. The following chart
shows the composition of the FY 2001 workload.

Sources of QR Activities

                                          Labor Unions (1)




    General Public (4)
                                                                           Congress (8)




                         SSA Management (4)


AGENCY MANAGEMENT CHALLENGES AND THE QR WORKLOAD
The QR workload does not follow our traditional processes. Usually, Office of Audit
activities consist of planned audits and evaluations that directly relate to the
management challenges facing the Agency. In contrast, the QR workload consists of
unplanned, short-duration, time-sensitive projects. Although unplanned, the QR
workload can be correlated to the Agency’s management challenges. We categorized
our QR workload in line with the following SSA management challenges.

·   Service to the Public
·   Fraud Risk
·   Representative Payee

                    Providing quality service to the public remains a critical management
Service to the      issue facing SSA. SSA recognizes there are several significant
   Public           issues that affect its ability to deliver world-class service. One is the
                    complexity of the programs SSA administers. Another is the steady
reduction in staffing resulting in an aging and work-laden workforce.
Page 3 – The Commissioner


Approximately 37 percent of SSA’s current workforce is projected to retire by the
year 2010. As reported by the Social Security Advisory Board, the combination
of growth in SSA’s workloads and a large wave of retirements by SSA’s aging
workforce will place extraordinary pressures on the Agency to meet the public’s
need for service. SSA will continue processing an increasing number of
disability claims. These claims are often difficult to evaluate and require
carefully informed judgment.

We received several inquiries from the Congress and the public that relate to SSA’s
service to the public. Examples of the types of inquiries we received in this area follow.

·   An inquiry on behalf of a constituent regarding an erroneous reclamation of her
    Social Security check from a check-cashing corporation.

·   Congressional inquiry on behalf of a constituent regarding an Administrative Law
    Judge’s decision to deny her Supplemental Security Income and Disability Insurance
    entitlement.

·   Claimant inquiry regarding wages that were incorrectly posted under her daughter’s
    Social Security number.

·   Congressional Subcommittee’s request for status of recommendations emanating
    from the four Payment Accuracy Task Force reports.1

·   Several union officials’ inquiries concerning the proposed relocation of a hearing
    office.

                      Each year, SSA pays out almost $500 billion in benefits. Many
       Fraud          unscrupulous individuals target SSA’s various benefit programs for
        Risk          their own gain. Realizing its responsibility to protect taxpayers’
                      dollars from losses associated with fraud and abuse, SSA
established the strategic goal “To ensure the integrity of Social Security programs, with
zero tolerance for fraud and abuse.”

The OIG has worked cooperatively with SSA in its efforts to detect and prevent program
fraud. Our QR activities pertaining to this issue include the following.

·   Congressional inquiry on behalf of a constituent who requested information about
    reclamation of benefits for deceased beneficiaries.



1
 Payment Accuracy Task Force: Earnings Record Issue Team, September 1997; Payment Accuracy
Task Force: SSI Earned Income IssueTeam, September 1998; Payment Accuracy Task Force Report:
Supplemental Security Income Unearned Income, September 1999; and Payment Accuracy Task Force
Report: Title II Relationship and Dependency, September 2000.
Page 4 – The Commissioner

·   Request from SSA to update its Tactical Plan on Key Initiatives the OIG has taken to
    combat fraud. We provided comments regarding the following OIG initiatives:

-   cooperative disability investigations program,
-   deceased auxiliary beneficiary project (BIC “D”), and
-   Electronic Crimes Team.

    Representative       SSA provides benefits to the most vulnerable members of
        Payee            society—the young, the elderly, and the disabled. The Social
                         Security Act grants SSA the authority to appoint representative
payees (Rep Payee) for beneficiaries where there is evidence the beneficiary is
incapable of managing or directing the management of their benefits. Rep Payees
(organizations or individuals) receive and manage payments on behalf of these
beneficiaries. SSA has the responsibility to ensure these payments are used for the
beneficiaries’ benefit.

Our QR work in this area included the following.

·   An attorney inquiry, on behalf of his client, regarding her removal as Rep Payee.
    The claimant alleged she was removed as Payee based on false allegations
    regarding her fitness to serve in that capacity.

·   Congressional requests for status on the activities of SSA’s Rep Payee Task Force.

The QR workload provides an opportunity for the OIG and SSA management to work
cooperatively and leverage our resources to respond in a timely fashion to the
Congress, the general public, and others with a vested interest in SSA’s programs and
operations. We look forward to continuing our partnership with the Agency as this
workload evolves.




                                                James G. Huse, Jr.
Appendix
                                                                       Appendix A

OIG Contacts and Staff Acknowledgments
OIG Contacts

       Shirley E. Todd, Director, General Management Audit Division, (410) 966-9365

Acknowledgments

In addition to those named above:

       Brian Karpe, Team Leader
       Evan Buckingham, Program Analyst
       Kim Beauchamp, Writer-Editor

For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-1375. Refer to Common Identification Number
A-13-02-12057.
                              DISTRIBUTION SCHEDULE

                                                                            No. of
                                                                            Copies

Commissioner of Social Security                                               1
Management Analysis and Audit Program Support Staff, OFAM                    10
Inspector General                                                             1
Assistant Inspector General for Investigations                                1
Assistant Inspector General for Executive Operations                          3
Assistant Inspector General for Audit                                         1
Deputy Assistant Inspector General for Audit                                  1
 Director, Systems Audit Division                                             1
 Director, Financial Management and Performance Monitoring Audit Division     1
 Director, Operational Audit Division                                         1
 Director, Disability Program Audit Division                                  1
 Director, Program Benefits Audit Division                                    1
 Director, General Management Audit Division                                  1
Team Leaders                                                                 25
Income Maintenance Branch, Office of Management and Budget                    1
Chairman, Committee on Ways and Means                                         1
Ranking Minority Member, Committee on Ways and Means                          1
Chief of Staff, Committee on Ways and Means                                   1
Chairman, Subcommittee on Social Security                                     2
Ranking Minority Member, Subcommittee on Social Security                      1
Majority Staff Director, Subcommittee on Social Security                      2
Minority Staff Director, Subcommittee on Social Security                      2
Chairman, Subcommittee on Human Resources                                     1
Ranking Minority Member, Subcommittee on Human Resources                      1
Chairman, Committee on Budget, House of Representatives                       1
Ranking Minority Member, Committee on Budget, House of Representatives        1
Chairman, Committee on Government Reform and Oversight                        1
Ranking Minority Member, Committee on Government Reform and Oversight         1
Chairman, Committee on Governmental Affairs                                   1
Ranking Minority Member, Committee on Governmental Affairs                   1
Chairman, Committee on Appropriations, House of Representatives              1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                        1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Committee on Appropriations, U.S. Senate                           1
Ranking Minority Member, Committee on Appropriations, U.S. Senate            1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate              1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                 1
Chairman, Committee on Finance                                               1
Ranking Minority Member, Committee on Finance                                1
Chairman, Subcommittee on Social Security and Family Policy                  1
Ranking Minority Member, Subcommittee on Social Security and Family Policy   1
Chairman, Senate Special Committee on Aging                                  1
Ranking Minority Member, Senate Special Committee on Aging                   1
Vice Chairman, Subcommittee on Government Management Information
 and Technology                                                              1
President, National Council of Social Security Management Associations,
  Incorporated                                                               1
Treasurer, National Council of Social Security Management Associations,
 Incorporated                                                                1
Social Security Advisory Board                                               1
AFGE General Committee                                                       9
President, Federal Managers Association                                      1
Regional Public Affairs Officer                                              1


Total                                                                        97
                Overview of the Office of the Inspector General


                                             Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                                   Office of Executive Operations
OEO supports the OIG by providing information resource management; systems security; and
the coordination of budget, procurement, telecommunicat
ions, facilities and equipment, and human resources. In addition, this office is the focal point for
the OIG’s strategic planning function and the development and implementation of performance
measures required by the Government Performance and Results Act. OEO is also responsible for
performing internal reviews to ensure that OIG offices nationwide hold themselves to the same
rigorous standards that we expect from SSA, as well as conducting investigations of OIG
employees, when necessary. Finally, OEO administers OIG’s public affairs, media, and
interagency activities, coordinates responses to Congressional requests for information, and also
communicates OIG’s planned and current activities and their results to the Commissioner and
Congress.


                                        Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                                  Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
